                                                   .,J-"s£cv
                                                  c;       ~
                                                 ~
                                                 \ 1IIII11~~
                                                   ""'IS~t-
                                      SOOAL          SECURITY
                                      Office of the Inspector General
MEMORANDUM
Date:      AUG 3 J 2001                                                      Refer To:
        Linda S. McMahon
To:     Regional Commissioner

          for San Francisco

From:   Assistant Inspector General
         for Audit


Subject:
      Audit of the Administrative   Costs Claimed by the Arizona Department of Economic

        Security for its Disability Determination Services Administration (A-15-99-51009)


        The attached final report presents the results of our audit. Our objectives were to
        evaluate the Arizona Department of Economic Security for its Disability Determination
        Services Administration's internal controls over the accounting and reporting of
        administrative costs and to determine if the costs claimed were allowable and properly
        allocated.                                                               .


        Please comment within 60 days from the date of the memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me or have your staff contact Frederick Nordhoff, Director, Financial
        Management and Performance Monitoring Audit Division, at (410) 966-6676.




        Attachment

        cc:
        John L. Clayton, Director, Department of Economic Security
        Vince Wood, Assistant Director, Division of Benefits and Medical Eligibility, DES
        Nancy X. West, Program Administrator, Disability Determination Services Administration
        Kenneth D. Nibali, Associate Commissioner, Office of Disability
        Thomas G. Staples, Associate Commissioner, Office of Financial Policy and Operations
             OFFICE OF

    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



   AUDIT OF THE ADMINISTRATIVE
  COSTS CLAIMED BY THE ARIZONA
     DEPARTMENT OF ECONOMIC
    SECURITY FOR ITS DISABILITY
     DETERMINATION SERVICES
         ADMINISTRATION
    August 2001       A-15-99-51009




                  +
                                      Mission

We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration  officials, the Congress, and the public.

                                     Authority

The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  0   Conduct and supervise independent and objective audits and

      investigations relating to agency programs and operations.

  o   Promote economy, effectiveness, and efficiency within the agency.

  0   Prevent and detect fraud, waste, and abuse in agency programs and

      operations.

  0   Review and make recommendations        regarding existing and proposed

      legislation and regulations relating to agency programs and operations.

  0   Keep the agency head and the Congress fully and currently informed of

      problems in agency programs and operations.


  To ensure objectivity,   the IG Act empowers   the IG with:

  o   Independence to determine what reviews to perform.
  0   Access to all information necessary for the reviews.
  0   Authority to publish findings and recommendations    based on the reviews.

                                       Vision

By conducting independent and objective audits, investigations,  and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          Executive Summary
OBJECTIVES
The objectives of our audit of the Arizona Department of Economic Security (AZ-DES)
for its Disability Determination Services Administration (AZ-DDSA) were to:

•	   evaluate internal controls over the accounting and reporting of the administrative
     costs claimed, as well as of the draw down of Social Security Administration (SSA)
     funds;

•	   determine whether costs claimed on the State Agency Report of Obligations for
     SSA Disability Programs (Form SSA-4513) for the period October 1, 1995 through
     September 30, 1998, were allowable and properly allocated; and

•	   determine if the aggregate of the SSA funds drawn down agreed with total
     expenditures for the Fiscal Years (FY) 1996 through 1998 disability determinations.

BACKGROUND
The Disability Insurance (DI) program is designed to provide benefits to wage earners
and their families in the event the wage earner becomes disabled. The Supplemental
Security Income (SSI) program provides a nationally uniform program of income to
financially needy individuals who are aged, blind and/or disabled.

SSA is primarily responsible for implementing the general policies governing the
development of the disability claims under the DI and SSI programs. Disability
determinations under both DI and SSI are performed by an agency in each State
according to Federal regulations. In carrying out its obligation, each State agency (SA)
is responsible for determining claimants’ disabilities and ensuring that adequate
evidence is available to support its determinations. To assist in making proper disability
determinations, each SA is authorized to purchase medical examinations, x-rays and
laboratory tests on a consultative basis to supplement evidence obtained from the
claimants’ physicians or other treating sources. SSA pays the SA for 100 percent of
allowable expenditures incurred in performing administrative functions under the DI
program.




Audit of Administrative Costs Claimed by the Arizona DES for its DDS (A-15-99-51009)   i
RESULTS OF REVIEW
AZ-DDSA, for FYs 1996 through 1998, claimed costs of $47,976,485. Except for the
following concerns, the results of our tests indicated that, with respect to the items
tested, the AZ-DDSA financial reporting and related draw downs complied in all material
respects with Federal cost principles and regulations. We also noted internal control
deficiencies over certain areas that are addressed in detail in the body of the report.

• Inconsistent accounting and reporting of obligations;

• Inconsistent accounting and reporting of automated investment funds (AIF);

• Unsegregated AIF accounting records causing reporting inaccuracies;

• Failure to maintain required inventory records; and

• Lack of formalized process for determining reasonableness of medical fees.

CONCLUSIONS AND RECOMMENDATIONS
We concluded that AZ-DDSA maintained documentation to support reimbursed claims
and that such costs were both allowable and properly allocated between appropriate
funds. However, improvements are needed in record keeping practices in order to
accurately account for and report the status of both unliquidated obligations and funding
provided by SSA specifically for enhancements to the intelligent workstation/local area
network. Also, required inventory controls have not been implemented to safeguard
computer equipment. We recommend that SSA instruct AZ-DDSA and AZ-DES to:

•	 Reduce reported Limitation on Administrative Expenses (LAE) unliquidated
   obligations for FYs 1997 and 1998 by $293,467 and $249,892 respectively. Also,
   reduce FY 1998 AIF unliquidated obligations by $163,400. These adjustments
   totaling $706,759 are necessary to deobligate amounts no longer needed to fund
   expenditures as well as cancel obligations not properly established.

•	 Improve the reporting of the status of obligations by the timely review of unliquidated
   obligations to determine if they remain valid, and to deobligate those obligations that
   are no longer required.

•	 Reduce FY 1997 AIF Form SSA-4513 expenditures by $137,759, which could not be
   substantiated.

•	 Reduce LAE and increase AIF expenditures for FY 1997 and 1998 in the amounts of
   $20,264 and $153,863, respectively to recognize AIF costs inappropriately charged
   to LAE funding.



Audit of Administrative Costs Claimed by the Arizona DES for its DDS (A-15-99-51009)   ii
•	 Increase reported FY 1998 AIF expenditures by $95,697 to properly reflect AIF
   expenditures not captured from accounting records.

•	 Document by memorandum, that the equipment on the State’s supplemental
   inventory list is part of the official State inventory records and that the State holds
   title to this equipment. For future equipment acquisition, include the unit cost
   information on the supplemental inventory list.

•	 Ensure appropriate and accurate fee setting in the future by establishing procedures
   to periodically review and compare fee schedules for providers with the fees paid by
   Federal and other State agencies for the same or similar types of services.

AGENCY COMMENTS
AZ-DDSA in coordination with the Regional Commissioner’s Office, had taken action to
implement our recommendations for the most part. However, the Regional
Commissioner’s office believed that additional AZ-DDSA work to enter the EDP
inventory on the Official State Inventory would be onerous. The AZ-DDSA commented
that they complied with the Regional Commissioner Office’s direction.

OFFICE OF THE INSPECTOR GENERAL’S RESPONSE
We generally agree with the Acting Assistant Regional Commissioner on
recommendation six. Based on the Agencys response, we have modified the
recommendation.




Audit of Administrative Costs Claimed by the Arizona DES for its DDS (A-15-99-51009)         iii
                                                          Table of Contents

                                                                                                             Page

INTRODUCTION ..................................................................................................... 1


RESULTS OF REVIEW ........................................................................................... 5


Inconsistent Accounting And Reporting of Obligations ............................................. 5


Inconsistent Accounting And Reporting of AIF ......................................................... 6


Unsegregated AIF Accounting Records

Causing Reporting Inaccuracies............................................................................... 6


Failure To Maintain Required Inventory Records .................................................... 7


Lack of Formalized Process For Determining

Reasonableness of Medical Fees............................................................................. 8


OTHER MATTERS................................................................................................... 8


CONCLUSIONS AND RECOMMENDATIONS ........................................................ 9


APPENDICES


APPENDIX A - Arizona DDSA LAE Costs – FY 1996


APPENDIX B - Arizona DDSA LAE costs – FY 1997


APPENDIX C - Arizona DDSA LAE Costs – FY 1998


APPENDIX D - Arizona DDSA AIF Costs – FY 1997


APPENDIX E - Arizona DDSA AIF Costs – FY 1998


APPENDIX F - SSA and AZ-DDSA Comments


APPENDIX G - OIG Contacts and Staff Acknowledgements





Audit of Administrative Costs Claimed by the Arizona DES for its DDS (A-15-99-51009)
                                                                     ACRONYMS

Act                            Social Security Act

AIF                            Automation Investment Funds

AZ-DDSA                        Arizona Disability Determination Services Administration

AZ-DES                         Arizona Department of Economic Security

CFR                            Code of Federal Regulations

DI                             Disability Insurance

EDP                            Electronic Data Processing

Form SSA-4513                  State Agency Report of Obligations for SSA Disability Programs

FY                             Fiscal Year

IWS/LAN                        Intelligent Workstation/Local Area Network

LAE                            Limitation on Administrative Expenses

MER/CE                         Medical Evidence Records and Consultative Examinations

OFS                            Arizona Office of Financial Services

OMB                            Office of Management and Budget

POMS                           Program Operations Manual System

SA                             State Agency

SFROD                          San Francisco Regional Office of Disability

SSA                            Social Security Administration

SSI                            Supplemental Security Income





Audit of Administrative Costs Claimed by the Arizona DES for its DDS (A-15-99-51009)
                                                                 Introduction

OBJECTIVES
The objectives of our audit of the Arizona Department of Economic Security (AZ-DES)
for its Disability Determination Services Administration (AZ-DDSA) were to:

•	   Evaluate internal controls over the accounting and reporting of the administrative
     costs claimed, as well as of the draw down of Social Security Administration (SSA)
     funds;

•	   Determine whether costs claimed on the State Agency Report of Obligations for
     SSA Disability Programs (Form SSA-4513) for the period October 1, 1995 through
     September 30, 1998, were allowable and properly allocated; and

•	   Determine if the aggregate of the SSA funds drawn down agreed with total
     expenditures for the Fiscal Years (FY) 1996 through 1998 disability determinations.

BACKGROUND
The Disability Insurance (DI) program was established in 1954 under title II of the Social
Security Act (Act). The program is designed to provide benefits to wage earners and
their families in the event the wage earner becomes disabled. The Supplemental
Security Income (SSI) program was created as a result of the Social Security
Amendments of 1972 with an effective date of January 1, 1974. SSI, (title XVI of the
Act) provides a nationally uniform program of income to financially needy individuals
who are aged, blind and/or disabled.

SSA is primarily responsible for implementing the general policies governing the
development of the disability claims under the DI and SSI programs. Disability
determinations under both DI and SSI are performed by an agency in each State
according to Federal regulations. In carrying out its obligation, each State agency (SA)
is responsible for determining claimants’ disabilities and ensuring that adequate
evidence is available to support its determinations. To assist in making proper disability
determinations, each SA is authorized to purchase medical examinations, x-rays and
laboratory tests on a consultative basis to supplement evidence obtained from the
claimants’ physicians or other treating sources.




Audit of Administrative Costs Claimed by the Arizona DES for its DDS (A-15-99-51009)      1
SSA pays the SA for 100 percent of allowable expenditures. Each year, SSA approves
a disability determination services (DDS) budget. Once approved, the SA withdrew
Federal funds through the U.S. Department of Health and Human Services’ (HHS)
Payment Management System to meet immediate program expenses. Beginning
April 1997, the SA could only withdraw Federal funds from the Department of the
Treasury’s (Treasury) Automated Standard Application for Payments System for this
purpose. At the end of each quarter of the Federal FY, each SA submits to SSA, a
Form SSA-4513 to account for program disbursements and unliquidated obligations.

HHS’ Division of Payment Management is responsible for operating this centralized
payment system. Cash drawn from the Treasury to pay for program expenditures is to
be drawn according to Federal regulations1 and in accordance with intergovernmental
agreements entered into by Treasury and States under the authority of the Cash
Management Improvement Act (CMIA).2 An advance or reimbursement for costs under
the program must be made according to the Office of Management and Budget’s (OMB)
Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments.

In addition to funding for regular administration of AZ-DDSA provided through the SSA
limitation on administrative expenses (LAE) funds, AZ-DDSA receives spending
authorizations from the SSA automation investment funds (AIF). AIF is provided to
AZ-DDSA for costs related to the Intelligent Workstation/Local Area Network
(IWS/LAN). SSA had funded and distributed IWS/LAN computer equipment to
AZ-DDSA. However, to accommodate the IWS/LAN equipment, AZ-DDSA had to alter
facilities, add telecommunication lines, provide furniture and train staff. The funds
provided by AIF were to be accounted for, reported and drawn down separately from
LAE funds.

AZ-DDSA is a component within AZ-DES. Budgets totaling $47,986,000 were
authorized for the three FYs under audit. AZ-DDSA accounting functions are performed
primarily by the Office of Financial Services (OFS). Indirect costs are allocated
according to the AZ-DES cost agreement, which is approved by HHS.

SCOPE AND METHODOLOGY
To accomplish our objectives, we obtained evidence to evaluate recorded financial
transactions in terms of their allowability under OMB Circular A-87 and appropriateness
as defined by SSA's Program Operations Manual System (POMS).

We reviewed the administrative costs totaling $48,343,654 reported by AZ-DDSA for the
FYs ended September 30, 1996, through 1998. This amount includes costs associated
with SSA’s AIF activities, which is intended for installation of and training on SSA’s
Intelligent Network in DDSs nationwide. Our audit coverage included any subsequent
financial activity affecting these FYs as of June 30, 1999. As of that time, SSA had


1
    31 C.F.R. § 205.
2
    Public Law No. 101-453.


Audit of Administrative Costs Claimed by the Arizona DES for its DDS (A-15-99-51009)    2
reimbursed AZ-DDSA $47,616,198 for amounts which had been disbursed. Obligations
reported as unliquidated amounted to $724,416.

We also:

•	 Reviewed applicable Federal regulations, pertinent parts of the POMS DI 39500
   “DDS Fiscal and Administrative Management” and other instructions pertaining to
   administrative costs incurred by AZ-DDSA and the draw down of SSA funds covered
   by the CMIA;

•	 Interviewed staff at AZ-DDSA, AZ-DES, Arizona State Office of the Auditor General,
   and SSA's San Francisco Regional Office of Disability (SFROD);

•   Reviewed AZ-DDSA general policies and procedures;

•	 Reviewed the Memorandum of Understanding between SSA and the AZ-DDSA
   which allows for non-SSA work;

•	 Evaluated and tested internal controls regarding accounting and financial reporting
   and cash management activities;

•	 Examined the administrative expenditures (personnel, medical service, indirect, and
   all other nonpersonnel costs) incurred and claimed by AZ-DDSA for the period
   October 1, 1995 through September 30, 1998;

•	 Reviewed the reconciliation of the official State accounting records to the
   administrative costs reported by AZ-DDSA to SSA on the Form SSA-4513 report for
   the period October 1, 1995 through September 30, 1998; and

•	 Compared the amount of SSA funds drawn for support of program operations to the
   allowable expenditures reported on the Form SSA-4513.

We also reviewed internal controls regarding the administration of the disability
determination activities and examined the administrative expenditures (personnel,
medical service, indirect, and all other nonpersonnel costs).




Audit of Administrative Costs Claimed by the Arizona DES for its DDS (A-15-99-51009)     3
We tested documents supporting the costs claimed by AZ-DDSA for the period
October 1, 1995 through September 30, 1998, as reported to SSA on the
Form SSA-4513 as of June 30, 1999.

We performed work in Phoenix and Tucson, Arizona at AZ-DDSA and the parent
agency, AZ-DES; as well as in Baltimore, Maryland, at SSA Headquarters. We held
discussions with AZ-DES; the Arizona State Office of the Auditor General; AZ-DDSA;
and SSA's SFROD. Our field work was conducted during the period from October 1999
through April 2000. This audit was conducted in accordance with generally accepted
government auditing standards.




Audit of Administrative Costs Claimed by the Arizona DES for its DDS (A-15-99-51009)   4
                                               Results of Review

Except for the issues discussed below, we determined that costs claimed were
allowable and properly allocated and aggregate funds drawn down agreed with the total
expenditures. Our report also includes recommended improvements to AZ-DDSA’s
internal controls over the accounting and reporting of administrative costs claimed.

Inconsistent Accounting And Reporting of Obligations
AZ-DDSA had not reviewed unliquidated obligations totaling $727,456 reported in

FYs 1997 and 1998 as required in POMS DI 39506.812. Regarding unliquidated

obligations reported under LAE funding, our discussion with AZ-DDSA officials

disclosed that there were no obligations remaining for FY 1997, and only

$20,697 remaining for FY 1998 that we were able to confirm. As of the end of our field

work, no action had been taken to deobligate those amounts no longer deemed valid.


In FY 1998, AZ-DDSA had reported AIF unliquidated obligations of $163,400 for site

preparation costs. We asked to review documentation regarding this reported obligation

and were informed that the AZ-DDSA was not able to substantiate that a valid obligation

had been established. POMS section DI 39506.803A.3 defines unliquidated obligations

as “unpaid obligations arising from a commitment or promise to pay for goods or

services or both, whether or not the goods or services have been received or a bill

rendered.”


The Arizona OFS and the AZ-DDSA need to coordinate review of reported obligations

to ensure their validity. We are recommending an adjustment to reduce the reported

unliquidated obligations on the LAE and AIF Form SSA-4513 for FYs 1997 and 1998 in

the amount of $706,759 as shown in the following table.





Audit of Administrative Costs Claimed by the Arizona DES for its DDS (A-15-99-51009)      5
                          UNDOCUMENTED UNLIQUIDATED
                                OBLIGATIONS
                                                                                       Line Item
         Line Item                  FY 1997                FY 1998                       Total
Payroll                             $   826                $     0                     $    826
Medical Evidence                    121,085                244,224                      365,309
Records and
Consultative (MER/CE)
Indirect Cost                        17,964                   2,697                      20,661
All Other Nonpers. Costs            153,592                   2,971                     156,563
Subtotal                            293,467                 249,892                     543,359
Auto. Invest. Fund                                          163,400                     163,400
FY Total                           $293,467                $413,292                    $706,759 *

* Adjustments are shown in Appendix B, C, and E, and labeled as Adjustment 1.

Inconsistent Accounting And Reporting of AIF
As part of our review of AZ-DDSA disbursement activity, we also requested the Arizona
OFS provide us with documentation to support the FY 1997 AIF disbursements of
$158,023 for site preparation costs. AZ-DDSA could not provide us any records of this
expenditure. Further inquiry into this reported expenditure disclosed that the amount in
question coincided with the amount of funding provided by SSA but such amounts had
not been drawn down. Since we could not substantiate this expenditure, we are
recommending an adjustment to eliminate this reported amount (as shown in
Appendix D, Adjustment 2).

Unsegregated AIF Accounting Records Causing Reporting
Inaccuracies
We also noted that AIF accounting records were not always segregated from the LAE
accounting records. A letter to all DDS Administrators3 stated in part that “AIF funding
can be used for only certain…IWS/LAN activities….” The AIF funds provided for AIF
expenditures were to be accounted for, drawn down and reported separately and not to
be part of the LAE funds. As we earlier reported, AZ-DDSA was not able to
substantiate the $158,023 in site preparation costs reported for FY 1997 or the
$163,400 reported as unliquidated obligations in FY 1998. Since no other costs were
reported in respect to travel, training or other associated indirect costs in FY 1997 and
only $45,746 had been reported in FY 1998, we became concerned whether all AIF
costs disbursed had been accounted for and reported. Especially in consideration that
$461,703 had been allocated to the AZ-DDSA specifically for AIF purposes.
3
 DDS Administrators’ Letter No. 396 Disability Determination Services Accounting Procedures for
Automation Investment Funding, August 28, 1996.


Audit of Administrative Costs Claimed by the Arizona DES for its DDS (A-15-99-51009)                6
As a result of our examination of internal accounting records, we identified an additional
$270,719 ($20,264 in FY 1997 and $250,455 in FY 1998) in AIF expenditures which
had not been reported. We believe there were two reasons for this reporting omission.
First, not all AZ-DDSA staff had recognized that AIF was a distinct fund and that such
transactions needed to be separately coded and reported. These transactions
amounted to $20,264 in FY 1997 and $153,863 in FY 1998 (See Appendix B through E,
Adjustments 3). Secondly, in FY 1998, OFS had failed to capture $95,697 (Appendix E,
Adjustment 4) in AIF expenditures accumulated in internal accounting records but not
included in the amounts reported in the FY 1998 Form SSA-4513 report. Based on the
additional expenditure information, we identified the AZ-DDSA had utilized 68 percent or
$315,570 of the $461,703 in funds budgeted for FYs 1997 and 1998 AIF purposes.

Failure to Maintain Required Inventory Records
AZ-DES did not maintain inventory lists as required by both State and SSA regulations.
State guidelines require the maintaining and accounting for purchased equipment.
Federal regulations4 provide for the State to have title to equipment purchased for
disability program purposes. The State is also responsible for maintaining all such
equipment to include identifying the equipment by labeling and by inventory. The State
of Arizona also requires property and inventory controls over equipment purchased.5

SSA funded and provided AZ-DDSA with 274 personal computers and 26 printers for
which no inventory list or periodic inventory was prepared. The lack of appropriate
inventory procedures occurred because there was uncertainty between the State and
SSA as to the value and ownership of the equipment.

The regulations clearly indicate that the State possesses title to the equipment. The
State is also required to properly account for and maintain such equipment. The
AZ-DDSA should coordinate this activity with the SFROD who should be able to obtain
information regarding the value of the equipment they had delivered to the AZ-DDSA.
Without the AZ-DES monitoring through physical inventory, the electronic data
processing (EDP) equipment could be stolen or misplaced without detection. As such,
necessary steps should be taken to establish inventory controls.

We are recommending that AZ-DDSA obtain listings of EDP equipment distributed by
SSA and enter the information in the official State inventory records. Maintaining such
records will facilitate annual inventories and could help to detect any stolen or
misplaced equipment.




4
    20 C.F.R. §§ 404.1628 and 416.1028.

5
    Arizona Accounting Manual – Sec. G, Fixed Assets Policy



Audit of Administrative Costs Claimed by the Arizona DES for its DDS (A-15-99-51009)      7
Lack Of Formalized Process for Determining Reasonableness Of
Medical Fees
AZ-DDSA had not established a process to determine the reasonableness of medical
fees. We conducted tests to ascertain whether the fees charged by the AZ-DDSA are
reasonable. POMS6 requires States to ascertain that the fees paid for the cost of
medical services and MER/CEs are reasonable and not in excess of other similar
Federal or State programs. POMS section DI 39545.410 also provides guidance to the
States on development, monitoring, and maintenance of fee schedules. Our tests of CE
fees included requesting fee schedules from Medicare, as applicable to the State of
Arizona, and other similar State programs. AZ-DDSA assisted us in this review by
identifying State programs that do similar medical service work. Our testing indicated
that the fees were reasonable.

OTHER MATTERS

BORROWING PRIOR YEAR FUNDS

Our review of AZ-DDSA’s automated standard application payment reports and
expenditure data disclosed that two draw downs totaling $1,505,971 were drawn from
FY 1998 funding to reimburse AZ-DDSA for expenditures incurred in FY 1999. The
funds for the two draw downs were returned in one transaction 1 month later. Internal
controls were not in place to prevent the occurrence of draw downs against prior years’
funding. Although the funds were returned within a 1-month period, the State was not in
compliance with the applicable Federal law, which requires that “(t)he balance of an
appropriation or fund limited for obligation to a definite period is available only for
payment of expenses properly incurred during the period of availability. . . .7 The AZ-
DES staff stated this happened because current funding was delayed, and the use of
the prior period funds enabled them to meet the current payment needs. The SFROD
staff said that if the AZ-DDSA did not have sufficient funding, the AZ-DES should have
contacted SFROD to remedy the problem as opposed to borrowing funds from another
FY. The SFROD staff informed us that they were not contacted about a shortage of
funding. We believe closer coordination is needed between the Regional
Commissioner’s staff and the AZ-DDSA to manage budgetary needs.




6
    DI 39545.210.1.
7
    31 U.S.C. § 1502(a).


Audit of Administrative Costs Claimed by the Arizona DES for its DDS (A-15-99-51009)   8
                                               Conclusions and
                                              Recommendations
We concluded that AZ-DDSA maintained documentation to support reimbursed claims
and that such costs were both allowable and properly allocated between appropriate
funds. However, improvements are needed in recordkeeping practices in order to
accurately account for and report the status of both unliquidated obligations and funding
provided by SSA specifically for enhancements to IWS/LAN. Also, required inventory
controls have not been implemented to safeguard computer equipment. We
recommend that SSA instruct AZ-DDSA and AZ-DES to:

1. 	 Reduce reported LAE unliquidated obligations for FYs 1997 and 1998 by
     $293,467 and $249,892, respectively. Also reduce FY 1998 AIF unliquidated
     obligations by $163,400. These adjustments totaling $706,759 are necessary to
     deobligate amounts no longer needed to fund expenditures, as well as cancel
     obligations not properly established.

2. 	 Improve the reporting of the status of obligations by the timely review of unliquidated
     obligations to determine if they remain valid, and to deobligate those obligations that
     are no longer required.

3. 	 Reduce FY 1997 AIF Form SSA-4513 expenditures by $137,759 (Appendix D)
     which could not be substantiated.

4. 	 Reduce LAE and increase AIF expenditures for FY 1997 and 1998 in the amounts of
     $20,264 and $153,863 to recognize AIF costs inappropriately charged to LAE
     funding.

5. 	 Increase reported FY 1998 AIF expenditures by $95,697 to properly reflect AIF
     expenditures not captured from accounting records.

6. 	 Document by memorandum, that the equipment on the State’s supplemental
     inventory list is part of the official State inventory records and that the State holds
     title to this equipment. For future equipment acquisition, include the unit cost
     information on the supplemental inventory list.

7. 	 Ensure appropriate and accurate fee setting in the future by establishing procedures
     to periodically review and compare fee schedules for providers with the fees paid by
     Federal and other State agencies for the same or similar types of services.




Audit of Administrative Costs Claimed by the Arizona DES for its DDS (A-15-99-51009)           9
AGENCY COMMENTS
AZ-DDSA in coordination with the Regional Commissioner’s Office, had taken action to
implement our recommendations for the most part. However, the Regional
Commissioner’s office believed that additional AZ-DDSA work to enter the EDP
inventory on the Official State Inventory would be onerous. The AZ-DDSA commented
that they complied with the Regional Commissioner Office’s direction.

OFFICE OF THE INSPECTOR GENERAL’S RESPONSE
We generally agree with the Acting Assistant Regional Commissioner on
recommendation six. Based on the Agency’s response, we have modified the
recommendation.




Audit of Administrative Costs Claimed by the Arizona DES for its DDS (A-15-99-51009)   10
                                          Appendices





Audit of Administrative Costs Claimed by the Arizona DES for its DDS (A-15-99-51009)
                                                                                                                                                  Appendix A

ARIZONA DISABILITY DETERMINATION SERVICES LIMITATION
OF ADMINISTRATIVE EXPENSES (LAE)

    LAE COSTS
  Fiscal Year 1996
                                                                                                                                                                     Total
                                         Unliquidated Obligations                                             Disbursements                                       Obligations
                               Personnel Medical Indirect All Other   Total   Personnel        Medical            Indirect     All Other        Total           Disbursements


As Reported by the Arizona-        $0.00   $0.00    $0.00      $0.00 $0.00    $6,728,303.00   $3,877,349.00      $901,969.00 $2,141,736.00   $13,649,357.00      $13,649,357.00
Disability Determination
Services Administration

Audit Adjustments:
No recommended adjustments



Total Adjustments                  $0.00   $0.00    $0.00      $0.00 $0.00           $0.00           $0.00            $0.00          $0.00              $0.00            $0.00

Allowed as a Result of Audit       $0.00   $0.00    $0.00      $0.00 $0.00    $6,728,303.00   $3,877,349.00      $901,969.00 $2,141,736.00   $13,649,357.00      $13,649,357.00




Audit of Administrative Costs Claimed by the Arizona DES for its DDS (A-15-99-51009)
                                                                                                                                                                  Appendix B

   ARIZONA DISABILITY DETERMINATION SERVICES LIMITATION OF
   ADMINISTRATIVE EXPENSES (LAE)
ARIZONA LAE COSTS
  Fiscal Year 1997

                                                                                                                                                                                  TOTAL
                                              Unliquidated Obligations                                          Disbursements                                                  OBLIGATIONS
                                        Personnel       Medical      Indirect     All Other      Total      Personnel    Medical      Indirect     All Other      Total       DISBURSEMENTS


As Reported by State Agency                    826        121,085       17,964       153,592     293,467     7,750,188    4,644,863    1,088,731    2,873,440    16,357,222         16,650,689

Audit Adjustments:

1. To reduce unliquidated obligations
for which documentation was
not located (see page 5).                     (826)      (121,085)     (17,964)    (153,592)    (293,467)                                                                            (293,467)

3. To reclassify Automation                                                                                                              (1,800)      (18,464)     (20,264)           (20,264)
Investment Funds costs
originally recorded as LAE costs
(see page 5)




Total Adjustments                            ($826)     ($121,085)   ($17,964)    ($153,592)   ($293,467)          $0           $0      ($1,800)     ($18,464)    ($20,264)         ($313,731)

Allowed as a Result of Audit                     $0            $0           $0            $0             $0 $7,750,188   $4,644,863   $1,086,931   $2,854,976 $16,336,958          $16,336,958




   Audit of Administrative Costs Claimed by the Arizona DES for its DDS (A-15-99-51009)
                                                                                                                                                             Appendix C

 ARIZONA DISABILITY DETERMINATION SERVICES LIMITATION OF
 ADMINISTRATIVE EXPENSES (LAE)
        LAE COSTS
      Fiscal Year 1998

                                                                                                                                                                             Total
                                         Unliquidated Obligations                                    Disbursements                                                        Obligations
                                      Personnel   Medical    Indirect All Other     Total        Personnel    Medical          Indirect     All Other       Total       Disbursements


  As reported by State Agency                  0     246,944     5,092    18,553      270,589     8,689,260    5,055,422        1,169,770     2,491,399    17,405,851        17,676,440

  Audit Adjustments:

  1.. To reduce unliquidated
  obligations
  for which documentation was
  not located (page 5 ).                       0    (244,224)   (2,697)   (2,971)    (249,892)                                                                                (249,892)

  3. To reclassify Automation                                                                                                    (13,669)     (140,194)     (153,863)         (153,863)
  Investment Funds costs
  originally recorded as LAE costs*
  (See page 5)




  Total Adjustments                          $0 $(244, 224) $ (2,697) $ (2,971) $ (249,   892)          $0              $0 $   (13, 669) $ (140,   194) $ (153, 863)         ($403,755)

  Allowed as a Result of Audit               $0 $    2   ,720 $ 2, 395 $ 15,582 $     20, 697 $ 8,689,260 $   5, 055,422 $ 1, 156,101 $     2, 351,205 $ 17, 251,988        $17,272,685




  *Indirect cost computed by Audit



Audit of Administrative Costs Claimed by the Arizona DES for its DDS (A-15-99-51009)
                                                                                                                                                                      Appendix D

ARIZONA DISABILITY DETERMINATION SERVICES AUTOMATION
OF INVESTMENT FUNDS (AIF)
       AIF COSTS
    Fisca l Year 1997

                                        Unliquidated Obligations                                            Disbursements
                                                                                                                                                                                       Total
                                        Site        Travel                                                 Site         Travel                                                      Obligations
                                       Prep.       Training       Furniture   Indirect       Total         Prep        Training       Furniture       Indirect        Total       Disbursements

As reported by State Agency                    0              0           0              0            0     158,023               0               0              0     158,023            158,023

Audit Adjustments:

2. Expenditures which could not                                                                            (158,023)                                                  (158,023)          (158,023)

be supported (See page 5)


3. Additional AIF costs incorrectly

recorded as Limitation on                                                                                                  1,751          16,713          1,800         20,264             20,264

Administrative Expenses (See page 5)


Total Adjustments                          $0             $0             $0          $0              $0   ($158,023)      $1,751         $16,713         $1,800      ($137,759)         ($137,759)

Allowed as a Result of Audit               $0             $0             $0          $0              $0           $0      $1,751         $16,713         $1,800        $20,264            $20,264




Audit of Administrative Costs Claimed by the Arizona DES for its DDS (A-15-99-51009)
                                                                                                                                                     Appendix E

ARIZONA DISABILITY DETERMINATION SERVICES
AUTOMATION OF INVESTMENT FUNDS (AIF)

         AIF COSTS
      Fiscal Year 1998


                                                      Unliquidated Obligations                                                     Disbursements
                                                                                                                                                                              Total
                                          Site          Travel                                           Site        Travel                                                Obligations
                                         Prep.         Training       Furniture Indirect    Total        Prep       Training       Furniture   Indirect       Total      Disbursements

As reported by State Agency               163,400                 0           0        0     163,400       44,851        895               0              0     45,746           209,146

Audit Adjustments:

1. To reduce unliquidated obligations    (163,400)                                          (163,400)                                                                          (163,400)
for which documentation was
Not located (page 5).

3. To reclassify AIF costs originally                                                                      96,959       4,335         38,900     13,669        153,863           153,863
classified as Limitation on
Administrative Expenses (see page 5)

4. AIF expenditures not reported                                                                           84,025       (895) *1                 12,567         95,697            95,697
on Form SSA-4513 (See page 5.)

Total Adjustments                       ($163,400)            $0             $0       $0   ($163,400)    $180,984     $3,440        $38,900     $26,236       $249,560           $86,160

Allowed as a Result of Audit                     $0           $0             $0       $0            $0   $225,835     $4,335        $38,900     $26,236       $295,306          $295,306

*1 - $895 reported on the Form SSA
4513 was not in accounting records




Audit of Administrative Costs Claimed by the Arizona DES for its DDS (A-15-99-51009)
                                                                                Appendix F

Agency Comments and

Arizona Disability Determination Services

Administration Comments





Audit of Administrative Costs Claimed by the Arizona DES for its DDS (A-15-99-51009)
                                                     ~\. SE:Cll
                                                 ~         ~...
                                                 ~ 'I'
                                                   /¥(,USA
                                                        ~'1.

                                                 ~ " III/III~!
                                                     JsTV

                                   SOCIAL              SECURITY          "


MEMORANDUM

Date:     JUr4                                                               Refer To   S2D9G4


To:     Steven    L.    Schaeffer
        Assistant       Inspector           General
         for Audit

From:   Acting Assistant   Regional                   Commissioner
        Management   and OperC'.tions                 Support.

Subject:Audit    of    the  Administrative                Costs  Claimed    by the         Arizona..
        Department       of Economic           Security      for    its  Disability            Determination
        Services       Administration            (A-15-99-51009)



        Thank you for the opportunity             to review    the draft       report  of your
        audit     of the Arizona      Department    of Economic       Security     for its
        Disability      Determination      Services   Administration.            Per your
        request,     we are providing        below written     comments for each of the
        seven recommendations          contained    in the draft       report.

        Recommendation     1:   Reduce reported      LAE unliquidated        obligations
        for FYs 1997 and 1998 by $293,467           and $249,892      respectively.
        Also reduce    FY 1998 AIF unliquidated        obligations       by $163,400.
        These adjustments     totaling    $706,759    are necessary       to deobligate
        amounts no longer     needed to fund expenditures,            as well     as cancel
        obligations    not properly    established.

        Response:        Subsequent    tQ the audit Arizona                      reduced      all  of its
        unliquidated       obl~gations    for FYs 1997 and                      1998 to      zero.  The
        years    are    now considered    closed.

        Recommendation      2: Improve     reporting                 of the status      of obligations
        by the timely     review   of'unliquidated                     obligations    to determine       if
        they remain    valid,    and to deobligate                    those. obligations      that    are
        no longer   required.

        Response:            We find    this     recommendation          reasonable.

        Recommendation     3:           Reduce FY 1997 AIF Form                   SSA-4513     expenditures
        by $137,759    which           could  riot be substantiat.ed.
                                                                                                2

Response:        We find   this    recommendation      reasonable      but believe
the amount should        be adjusted.          In the year that      passed    since
the audit      work was completed,         the Arizona     DDSA, the Arizona
Office    of Financial       Services    and the regiqnal       office    worked hard
to resolve       the problems      with  the AIF expenditures.           Arizona
submitted      a final   AIF SSA-4513        for FY 1997 in October         2000
showing    total    AIF expenditures         of $23,314,    which differs
slightly     from your recomm~nded           amount of $20,264.

Recommendation  4:   Reduce LAE and increase   AIF expenditures                                   for
FY 1997 and 1998 in the amounts of $20,264     and $153,863     to
recognize  AIF costs  inappropriately  charged  to LAE funding.

Response:        We find    this   recommendation          reasonable   but,    as with
recommendation        3, we believe        the amounts have changed slightly.
.Based on the additional           work performed          by the Arizona     DDS, the
Arizona     Office    of Financial       Services      and the regional       office,   we
support     the final     AIF SSA-4513         for FY 1997 amount that         shows
total    expenditures      of $23,314.           The final     AIF SSA-4513 for FY
1998 shows total         expenditures        of $276,636,       which differs
slightly      from your audit        chart    amount of $295,306.

Recommendation      5:         Increase      reported  FY 1998 AIF             expenditures      by
$95,697    to properly           reflect     AIF expenditures  not             captured     from
accounting    records.

Response:         We find      this    recommendation          reasonable

Recommendation   6:    Obtain listings      of               EDP equipment   distributed
by SSA and enter    the equipment      on the                Official  State   inventory
records.

Response:        We do not support           this     recommendation.                The State
requires      items   valued    at $5,000         or more to be entered                   into  the
Official      State   inventory       records.          Items with          a unit       cost of
                          f
less than $5,000 may be tagged                  with proper             identification         and
kept on a supplementary             list.       The individual              EDP equipment
items     are valued     at less      than $5,000,            they contain           an SSA tag,
and the DDSA maintains            a.supplementary               listing        of all     EDP items
in addition        to SSA records.           The DDS is meeting                  all   of the
regulatory       and POMS requirements              regarding           inventory       of EDP
equipment.         The sole exception           is that         the State's          supplementary
list     does not contain       the unit        cost as required                 by POMS DI
39500.020.         SSA has never        furnished         this      information.            It would
be onerous       to require     the additional              work of entering              the EDP
equipment       on the Official         State     inventory.
                                                                               3



Recommendation     7:   Ensure appropriate         and accurate      fee setting
in the future     by establishing       procedures     to periodically      review
and compare    fee schedules      for providers      "with the fees paid by
Federal   and other   State     agencies    for the same or similar         types
of services.

Response:     We find    this   recommendation           reasonable

If you have "any questions       regarding       our comments,    please call
me.    If   staff   have any questions,       the"y may calJ   Diane Trewin        at
 (510)    970-8295.


                                                                      )
                                    UJ~~
                                      Diane   Blackman
                         ARIZONA     DEPARTMENT            OF ECONOMIC        SECURITY
                               Djsabili'fi Determination   Service Administration
                           3310 N.19       Ave.-Phoenix,   AZ85015-602~264-2644
 Jane Dee Hull                                                                           John L- Clayton
 Governor   .                                                                                   Di~ctor



 July 2612001
 GUS Villalobos
 Social Security Administration
 Center for Disability
 ) 221 Nevin Avenue
 Richmond, California 94801

RE: Audit of the Administrative Costs Claimed by the Arizona Department of Economic
Security for the Disability Determination Service Administration (A-15-99-51009)

Dear Gus:

Recommendation      1:    Reduce unliquidated obligations for FY's 1997 & 1998 including the FY
1998 AIF fund.
Response: AriZona agrees unliquidated obligations were not reduced timely. Subsequent to
the audit, FY1997, FY1998 and FY1999 have all been reduced 10zero with final SSA-4514
reports filed. We believe the auditors did not have all the data available when they were
performing the audit so the data was updated and Quarterly reports were final for the years
after the auditors left.


Recommendation 2: Improve reporting of the status of obligations by the timely review of
unliquidated obligations.
Respon$e: Arizona agreed with this when the auditor's were here and proceeded to create
monthly computer reports that give us unliquidated medica] obligations that need to be
investigated. This has been f~nctioning for over 12 months now. We eliminate items on a
monthly basis.


Recommendation 3: Reduce FY1997 A,F Form SSA-4513 Expenditures.
Response: Arizona agrees. however, the amount was different th~n what was recommended
by the auditors based on further investigation. This happened because. the DDSA program
input the requests in 1997I but the work was actually done in FY 1998. The final SSA.4513
was completed and included the changes,
 Recommendation 4:     Reduce LAE and increase AIF expenditures for FY's 1997 ~ 1898.
Response: Arizona had not completed the investigation regarding LAE verses AIF funds, but
moved money as appropriate after our investigation. Arizona Knew and advised the auditors
we were working to resolve the AIF funds issue.


 Recommendation 5:     Increase reported FY 1998 AIF expenditures.
Response: Atthough the amounts are very close to our final report. they are not exact. We
knew and were working on fIxing the amounts when the auditors were here. Different budget
staff had just been assigned to the DDSA program, and did correct expenditures. We worked
with our Social Security Administration Regional Office Onthe changes.


 Recommendation 6: Obtain listing of EDP equipment distributed by SSA and enter the
 equipment on the official state inventory.
Response: The equipment distributed by SSAis not entered on the official state inventory.
The .State of Arizona followed the Social Security Administration's Regional Office directions .
on all EDP equipment received directly from the Social Security Administration. All items that
were purchased by OES as state equipment were listed on the DES inventory systems. The
DES inventory section does send out an employee to inventory the items purchased by DES
once a year.


Recommendation 7: Ensure appropriate and accurate fee setting for consultative
examinations so the fees are consistent with other State and Federal programs.
Response: Arizona agrees with this recommendation. Before the auditors arrived we had
established and hired a new professional relations position. We worked on the spreadsheet
and had more than 50% of it complete when the auditor's left Arizona. Our fee$ were found to
be reasonable. We now have the spreadsheet completed with al' the fees. It will be updated
annually.


If you have any questions regarding our comments, please call Ny[a Waltz or me at 602-264
2644.


                                                Sincerely,

                                                ~
                                                    rt~~
                                                Nancy vast

                                                Program Administrator


c:

N. Waltz

DDSA   File




                                                                                     Tr
                                                                                       Appendix G

OIG Contacts and Staff Acknowledgements
OIG Contacts
   Frederick C. Nordhoff, Director, Financial Management and Performance Monitoring
     Audits, (410)-966-6676

   Carl Markowitz, Audit Manager, (410)-965-9742

   Patrick Kennedy, Audit Manager, (410)-965-9724

Acknowledgements

In addition to those named above:

   Sig Wisowaty, Auditor-in-Charge

   Steve Sachs, Senior Auditor

   Alan Lang, Senior Auditor, Statistical Specialist

   Glenn E. Lee, Auditor

   Carol Ann Frost, Systems Analyst

   Annette DeRito, Program Analyst



For additional copies of this report, please contact Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-15-99-51009.




Audit of Administrative Costs Claimed by the Arizona DES for its DDS (A-15-99-51009)
                                        DISTRIBUTION                SCHEDULE

                                                                                                        No. of
                                                                                                        CaRies

Commissioner        of Social Security                                                                         1
Management        Analysis      and Audit Program          Support    Staff, OFAM                         10

Inspector     General                                                                                          1
Assistant     Inspector     General     for Investigations                                                     1
Assistant     Inspector     General     for Executive      Operations                                          3
Assistant     Inspector     General     for Audit                                                              1
                                                       I
Deputy Assistant          Inspector     General     for Audit                                                  1
  Director,    Systems       Audit Division

  Director,    Financial     Management           and Performance       Monitoring     Audit Division          1
  Director,    Operational      Audit Division                                                                 1

  Director,    Disability    Program      Audit Division                                                       1

  Djrector,    Program       Benefits    Audit Division                                                        1

  Director,    General      Management        Audit Division

Issue Area Team Leaders                                                                                   25


Income Maintenance            Branch,     Office of Management           and Budget                            1


Chairman,      Committee       on Ways and Means                                                               1
Ranking     Minority    Member,       Committee       on Ways and Means                                        1
Chief of Staff, Committee             on Ways and Means                                                        1
Chairman,      Subcommittee           on Social Security                                                       2
Ranking     Minority    Member,       Subcommittee         on Social Security                                  1
Majority    Staff Director,     Subcommittee          on Social Security                                       2
Minority    Staff Director,     Subcommittee          on Social Security                                       2
Chairman,      Subcommittee           on Human       Resources                                                 1
Ranking     Minority    Member,       Subcommittee         on Human Resources

Chairman,      Committee       on Budget,      House of Representatives

Ranking     Minority    Member,       Committee       on Budget,      House of Representatives

Chairman,      Committee       on Government           Reform and Oversight

Ranking     Minority    Member,       Committee       on Government        Reform and Oversight

Chairman,      Committee       on Governmental           Affairs

Ranking     Minority    Member,       Committee       on Governmental       Affairs

                                                                                                       Page 2

Chairman,      Committee           on Appropriations,      House of Representatives                       1
Ranking Minority Member, Committee                      on Appropriations,
 House of Representatives                                                                                 1
Chairman, Subcommittee     on Labor, Health and Human Services,                          Education
 and Related Agencies, Committee on Appropriations,
  House of Representatives                                                                                1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                                                 1
Chairman,      Committee           on Appropriations,      U.S. Senate                                    1
Ranking      Minority     Member,      Committee        on Appropriations,      U.S. Senate               1
Chairman, Subcommittee                on Labor, Health and Human Services, Education
 and Related Agencies,               Committee on Appropriations, U.S. Senate                             1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                                              1
Chairman,      Committee           on Finance                                                             1
Ranking      Minority     Member,      Committee        on Finance                                        1
Chairman,      Subcommittee           on Social Security       and Family Policy                          1
Ranking      Minority     Member,      Subcommittee         on Social Security     and Family Policy      1
Chairman,      Senate      Special Committee            on Aging                                          1

Ranking      Minority     Member,      Senate   Special Committee            on Aging                     1

Vice Chairman, Subcommittee                  on Government         Management       Information
  and Technology                                                                                          1
President,     National     Council     of Social Security      Management        Associations,
  Incorporated                                                                                            1
Treasurer,     National      Council     of Social Security     Management        Associations,
  Incorporated                                                                                            1
Social Security         Advisory     Board                                                                1
AFGE General        Committee                                                                             9
President,     Federal      Managers       Association                                                    1
Regional     Public Affairs Officer                                                                       1


Total                                                                                                    97
                   Overview of the Office of the Inspector General


                                         Office of Audit
The Office of Audit (OA) conducts comprehensivefinancial and performance audits of the
Social Security Administration's (SSA) programs and makes recommendations to ensurethat
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assesswhether SSA' s financial statementsfairly present
the Agency's financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA' s programs. OA also conducts short-term
managementand program evaluations focused on issuesof concern to SSA, Congress,and the
generalpublic. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supportsthe Office of the Inspector General (OIG) by
providing information resourcemanagement;systemssecurity; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition,
this office is the focal point for the OIG's strategic planning function and the development and
implementation of performance measuresrequired by the Government Performance and Results
Act. OEO is also responsible for performing internal reviews to ensurethat OIG offices
nationwide hold themselves to the samerigorous standardsthat we expect from the Agency, as
well as conducting employee investigations within OIG. Finally, OEO administers OIG's public
affairs, media, and interagency activities and also communicates OIG's planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (01) conducts and coordinates investigative activity related to fraud.
waste, abuse,and mismanagementof SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representativepayees,third
parties, and by SSA employeesin the performance of their duties. Or also conductsjoint
investigations with other Federal, State,and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: l) statutes,regulations, legislation, and policy directives
governing the administration of SSA' s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the DIG. The Counsel's office also administers the civil monetary penalty program.
